No. 19-1080

 

IN THE
Supreme Court of the United States

ARCHER AND WHITE SALES, INC.,

Cross-Petitioner,
v.

HENRY SCHEIN, INC.
Respondent.

On Cross-Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

BRIEF OF AMICUS CURIAE PROFESSOR
GEORGE A. BERMANN IN SUPPORT OF
CROSS-PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,550 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 2, 2020.

 

Wilson-Epes Printing Co., Inc.
